                            Department of the Interior
                           Office of Inspector General




            AUDIT REPORT



             U.S. Fish and Wildlife Service
        Federal Assistance Grants Administered
   by the District of Columbia, Department of Health,
  From October 1, 2002, Through September 30, 2004




Report No. R-GR-FWS-0020-0005         November 2006
                   United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                            12030 Sunrise Valley Drive, Suite 230
                                   Reston, Virginia 20191

                                                                             November 15, 2006


                                     AUDIT REPORT
Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Christina M. Bruner
              Director of External Audits

Subject:      Audit on the U.S. Fish and Wildlife Service Federal Assistance Grants
              Administered by the District of Columbia, Department of Health, From
              October 1, 2002, Through September 30, 2004 (No. R-GR-FWS-0020-2005)

        This audit report presents the results of our audit of costs incurred by the District of
Columbia (District), Department of Health (Department), Fisheries and Wildlife Division
(Division). The Division incurred the costs under the U.S. Fish and Wildlife Service (FWS)
Federal Assistance grants. The audit included total reported outlays of approximately $3.6
million on FWS grants that were open during fiscal years (FYs) 2003 and 2004 (see appendix 1).
The audit also evaluated Department compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of fishing license revenues and the
reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements for administering its Federal Assistance grants. We questioned costs
totaling $49,391 that were unallowable. They pertained to labor ($30,958), in-kind contributions
($4,663), and other direct costs ($13,771). We identified unsupported costs totaling $1,290,047.
They pertained to labor ($1,225,099), in-kind contributions ($60,341), and other direct costs
($4,607). We also identified issues regarding Department annual license certifications, District
assent legislation, control of personal property, and indirect cost rates.

      We provided a draft of the report to FWS and the Department for response. The
Department and FWS elected not to respond to the draft report, but FWS indicated they will
work with the Department to address any reported issues in the corrective action plan. Since
FWS did not comment on the findings and recommendations, we consider them unresolved and
unimplemented. We list the status of the recommendations in appendix 2.
        Please respond in writing to the findings and recommendations in this report by
February 19, 2007. Your response should include information on actions taken or planned,
target dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact me at 703-487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                               2
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts), 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts provide for FWS to reimburse the states up to 75 percent
of the eligible costs incurred under the grants. They also specify that state fishing license
revenues cannot be used for any purpose other than the administration of state fish and wildlife
agencies. The District sells only fishing licenses. Therefore, only the Dingell-Johnson Sport
Fish Restoration Act (Act) applies.

Objectives
The objectives of our audit were to determine whether the Department:

      •    incurred the costs claimed under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and grant agreements;

      •    used state fishing license revenues solely for fish and wildlife program activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
The audit work included total reported outlays of approximately $3.6 million on nine FWS
grants that were open during FYs 2003 and 2004 (see appendix 1). We performed our audit at
Department headquarters in Washington, D.C. We also visited the Aquatic Education Center
and boat ramps at Anacostia Park and Columbia Island Marina. We performed this audit to
supplement, not replace, the audits required by the Single Audit Act of 1984, as amended, and
the Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. We examined the evidence supporting
selected expenditures charged to the grants by the Department, interviewed Department
employees to ensure that personnel costs charged to the grants were supportable, and determined
whether the Department used fishing license revenues solely for sport fish and wildlife program
purposes. To the extent possible, we relied on the work of the District Single Auditor to avoid


1
    As amended 16 U.S.C. §§ 669 and 777, respectively.



                                                         3
duplication of audit effort. We did not evaluate the economy, efficiency, or effectiveness of
Department operations.

We selected a judgmental sample of transactions for substantive testing based on an initial
assessment of risk. We reviewed transactions and supporting documentation related to
purchases, other direct costs, drawdowns of reimbursements, in-kind contributions, program
income, equipment, and other property. We did not project the results of substantive tests to the
total population of recorded transactions. We also reviewed the financial management systems
for labor and license fees to identify the relevant internal controls over transactions recorded in
those systems and to test the operation and reliability of those controls.

Prior Audit Coverage
On April 8, 2003, we issued an audit report, “Final Advisory Report on Costs Claimed by the
District of Columbia, Environmental Health Administration, Fisheries and Wildlife Division,
under Federal Aid grants from the U.S. Fish and Wildlife Service from October 1, 1996 to
September 30, 1998.” We followed up on all findings and recommendations and determined
they have been resolved and implemented.

We also reviewed District Comprehensive Annual Financial Reports for FYs 2003 and 2004 and
Single Audit reports for FYs 2002 and 2003. The Sport Fish Restoration Program had not been
selected for testing in any of these audits. These reports did not contain any findings that would
directly affect the Department Federal Assistance grants.




                                                 4
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts and regulations and that FWS used fishing license revenues solely
for Department fish and wildlife program activities.

However, we questioned costs and identified other issues as listed below.

       Questioned and Unsupported Costs. The Department charged labor hours to six grants
       based on estimates rather than actual hours worked and overstated in-kind contributions.
       In addition, in-kind volunteer hours and other direct costs were not adequately supported.

       Duplicate License Holders Not Removed. The Department did not eliminate duplicate
       license holders from its annual license certifications.

       Assent Legislation Not Passed as Required by the Acts. The District has not passed
       permanent assent legislation that prohibits the use of license revenues for ineligible
       activities.

       Inadequate Controls Over Personal Property. The District Fixed Asset System (FAS)
       inventory listing was incomplete and not all Division personal property items were
       tagged.

       Compliance With 3 Percent Limitation Not Ensured. The Department had not
       adopted procedures to ensure the Department limits allocations for state central services
       to 3 percent of the state’s annual Federal Assistance apportionments.

Findings and Recommendations

A.     Questioned and Unsupported Costs

       1.     Labor Costs

              Labor charges to Federal Assistance grants, charged directly and as state match,
              were based on budgeted rather than actual hours worked.

              The Code of Federal Regulations (2 C.F.R. § 225, appendix A, section E.2.a)
              states that typical direct costs chargeable to federal awards include compensation
              of employees for the time devoted to and identified specifically for the
              performance of those awards. Appendix B, section 8.h(4), requires that when
              employees work on multiple activities or cost objectives, a distribution of their
              wages be supported by personnel activity reports or equivalent documentation.




                                                5
     The documentation must reflect the distribution of each employee’s actual
     activity. Budget estimates or other distribution percentages determined before
     employees perform the services do not qualify as support for charges to federal
     awards.

     Division managers were not required to track their work on multiple grants
     through personnel activity reports. Instead, labor costs for employees working on
     multiple grants were charged to the Federal Assistance grants based on budget
     estimates developed by the program manager. Additionally, some labor was
     charged for a manager who did not work on the grants. As a result, we questioned
     labor costs charged to FWS grants totaling $30,958 for unallowable manager
     charges and $1,225,099 of unsupported costs for personnel and managers who
     worked on multiple grants, as follows:

                           Questioned           Unsupported
      Grant Number          Costs                   Costs
        F-1-C-18             $15,479              $124,736
        F-1-C-19                  $0             $123,384
        F-2-R-18             $10,319              $231,095
        F-2-R-19                  $0             $316,860
        F-4-E-17              $5,160              $244,941
        F-4-E-18                  $0             $184,083
         Totals              $30,958            $1,225,099

     Because the Division charged 100 percent of their labor costs to the grants, we are
     questioning and making recommendations to resolve the entire amounts.

     Recommendations

     We recommend that FWS require the Department to:

     1. resolve the questioned costs of $30,958 that were not allowable;

     2. resolve the $1,225,099 of unsupported personnel costs that were charged to
        more than one grant; and

     3. charge labor costs to Federal Assistance grants for all employees based on
        signed personnel activity reports that reflect actual hours worked.

2.   In-Kind Contributions

     The District’s matching share of Federal Assistance grants was composed of in-
     kind contributions and additional outlays. However, volunteer participant time
     for the Division’s in-kind contributions for the two Aquatic Education grants (F-
     4-E-17 and F-4-E-18) was not adequately documented. The Division did not
     require volunteers to record actual hours or require supervisory confirmation of



                                      6
     claimed hours, and some volunteers recorded estimated or projected hours. In
     addition, some transportation costs claimed as in-kind contributions were not
     third-party and contributions were overstated.

     According to 43 C.F.R. § 12.64 (b)(6), records for third party in-kind
     contributions must be verifiable from state records and should be supported, to the
     extent feasible, by the same methods used to support regular personnel costs. In
     addition, FWS Region 5 provided guidance to the Division by specifying how it
     should document in-kind contributions.

     The Division did not follow FWS guidance or applicable regulations. Therefore,
     for costs claimed as matching share, we questioned $7,117 claimed in overstated
     amounts and transportation costs on grant F-4-E-18, and determined that $66,600
     claimed for volunteer time on grant F-4-E-17 and $22,883 claimed for volunteer
     time on grant F-4-E-18 lacked adequate support. As a result, we questioned
     $4,663 of federal share for contributions claimed for grant F-4-E-18 and
     determined that $60,341 of federal share costs were unsupported in-kind
     contributions for grants F-4-E-17 ($45,349) and F-4-E-18 ($14,992).

     Recommendations

     We recommend that FWS require the Department to:

     1. resolve the $4,663 of federal share costs that we questioned due to overstated
        in-kind contributions claimed for grant F-4-E-18;

     2. resolve the $60,341 of federal share costs that were unsupported in-kind
        contributions for grants F-4-E-17 ($45,349) and F-4-E-18 ($14,992); and

     3. implement procedures to ensure that volunteer hours and transportation costs
        used as in-kind contributions are adequately documented and reported.

3.   Other Direct Costs

     The Division failed to maintain adequate support documentation for some grant
     expenditures and charged some costs to the wrong grant.

     According to 43 C.F.R. § 12.60(b)(2), grantees must maintain records that
     adequately identify the source and application of funds provided for financially-
     assisted activities. This requirement pertains to records that contain information
     on grant awards, outlays or expenditures, and income. In addition, costs must be
     adequately documented to be allowable under federal awards (2 C.F.R. § 225,
     appendix A, section C.1.j). According to 50 C.F.R. § 80.15, for costs to be
     allowable, they must be necessary and reasonable for the accomplishment of
     approved project purposes.




                                      7
            Of the 47 transactions reviewed, we found that 10 expenditures, totaling $13,771,
            were charged to the wrong grant and 7 expenditures, totaling $4,607, lacked
            adequate support documentation. See the chart below for questioned and
            unsupported costs applied to the grants. These expenditures represent the federal
            portion.


                                            Questioned       Unsupported
                      Grant Number           Costs              Costs
                        F-1-C-18                $716               $62
                        F-1-C-19              $10,444           $1,312
                        F-2-R-19                 $110               $0
                        F-4-E-17               $2,500               $0
                        F-4-E-18                   $0           $3,233
                         Totals               $13,771           $4,607

            Recommendations

            We recommend that FWS require the Department to:

            1. resolve the $13,771 of questioned costs and $4,607 of unsupported costs;

            2. maintain proper documentation for all costs charged to Federal Assistance
               grants; and

            3. revise its procedures to ensure that grant costs are charged to the appropriate
               grants.

B.   Duplicate License Holders Not Removed

     The Department did not eliminate duplicate license holders in the annual license
     certifications submitted to FWS for FYs 2003 and 2004. The individual who completed
     the license certifications was unaware of the requirement. As a result, the number of
     licenses certified by the Department for those years may be inaccurate.

     FWS uses the license certifications to determine, in part, the annual apportionment of
     Federal Assistance funds for each state. Title 50 C.F.R. § 80.10 specifies the
     requirements for annual license certifications. Sections (a) and (b) require states to report
     the number of hunting and fishing license holders annually to FWS and to certify the
     accuracy of their counts. Section (c)(5) prohibits including an individual more than once
     as a hunting or fishing license holder in annual certification counts. The state is
     responsible for certifying that it eliminated duplications. Accurate license certifications
     are necessary to properly compute each state’s apportionment according to a prescribed
     formula.




                                               8
     Recommendation

     We recommend that FWS ensure that the Department develop and implement procedures
     for identifying and eliminating duplicate license holders from its annual license
     certification.

C.   Inadequate Assent Legislation

     The Sport Fish Restoration Act requires that–before any monies are apportioned to a
     state–the state assent to the provisions of the Act. In addition, the state must pass laws
     that include a prohibition against the use of license fees paid by sport fishermen for any
     purpose other than the administration of the state fish and wildlife agency (50 C.F.R. §
     80.3).

     According to the Corrective Action Plan for the previous audit, “the District submitted a
     request in January 2003 to amend D.C. Law 5-188 to include legislation prohibiting the
     diversion of fishing licenses revenue to purposes other than the administration of the
     District's fish and wildlife agency.” However, the District has not passed permanent
     assent legislation, and this prohibition expired in November 2005. Because the District
     has not assented to the Sport Fish Restoration Act and has not prohibited the use of
     license revenues for anything other than the administration of its fish and wildlife agency,
     it may not be entitled to receive funds apportioned under the Act.

     Recommendations

     We recommend that FWS:

     1. require the District of Columbia to assent to the Sport Fish Restoration Act and to
        amend its laws to conform to Act requirements on the use of fishing license revenues
        and

     2. determine whether the Department may continue to participate in the Federal
        Assistance program, if the District does not pass assent legislation.

D.   Inadequate Controls Over Personal Property

     With the assistance of Division staff at each location, we inspected a sample of vehicles,
     equipment, and computer-related items. We found that not all items were tagged and the
     District’s FAS inventory listing was incomplete.

     Title 43 C.F.R. § 12.72(b) requires a state to use, manage, and dispose of equipment that
     it acquired under a grant in accordance with state laws and procedures. The District of
     Columbia Financial Policies and Procedures Manual requires capitalized (greater than
     $5,000) and noncapitalized ($1,000-$4,999) fixed assets be recorded in FAS. Agencies
     must also record and maintain a supplementary listing on the agency FAS for items




                                              9
     valued between $1,000 and $5,000. In addition, a physical inventory of fixed assets must
     be performed annually to ensure adequate care is used in the control and accountability of
     those assets.

     The Division is not following District policies and procedures for recording and tracking
     property. Although Division personnel have prepared inventory lists of equipment in
     their custody, these lists have not been reconciled to the official Financial Office
     inventory nor have annual physical inventories been conducted as required. In addition,
     no standard method of "tagging" equipment exists. Personnel in control of personal
     property were unaware of the federal regulations or District policies and procedures that
     govern the control and accountability of personal property.

     As a result, the Division had no effective control over its personal property. It could not
     ensure that assets acquired with Federal Assistance funds and license revenues were
     adequately safeguarded and utilized solely for the Division’s administration.

     Recommendations

     We recommend that FWS require the Department to:

     1. ensure that the policies and procedures pertaining to equipment management are
        followed;

     2. perform a physical inventory and update the FAS inventory listing, as necessary; and

     3. ensure all property is tagged with property identification numbers, as required.

E.   Compliance With 3 Percent Limitation Not Ensured

     States allocate administrative costs for state-provided central services as an indirect cost
     across multiple grants and programs. The Act limits indirect costs that states can allocate
     for state central services to Federal Assistance grants. Although the indirect costs the
     Department charged to FYs 2003 and 2004 grants were based on approved indirect cost
     rates, the Department had not requested a restricted rate to account for the limitation on
     state central services or established official written policies and procedures to ensure
     compliance with the limitation.

     FWS has interpreted and codified the Act’s requirement (see 50 C.F.R. § 80.15(e)). The
     regulation states that administrative costs in the form of overhead or indirect costs for
     state central services outside of the state fish and wildlife agency shall not exceed 3
     percent of the annual apportionment to that state in any 1 fiscal year. In addition,
     2 C.F.R. § 225, appendix E, section C.4(b), requires the state to request a special or
     restricted rate when federal statutes restrict reimbursement of certain indirect costs.

     The states are responsible for complying with all rules and regulations of the grant
     programs in which they participate. As such, states must establish procedures that




                                              10
include documenting steps to calculate and ensure that indirect costs for central services
will not exceed 3 percent of the annual apportionment. Without proper application and
monitoring, Department reimbursement for central services cost could exceed the 3
percent limitation.

Recommendations

We recommend that FWS require the Department to:

1. establish policies and procedures to address the 3 percent limitation, including
   documenting steps to calculate and ensure that indirect costs for central services
   applied to Federal Assistance grants will not exceed 3 percent of the annual Sport
   Fish apportionment;

2. apply for and receive, if the calculations show that the limitation will be exceeded, a
   restricted indirect rate; and

3. ensure that the restricted rate, if received, is applied correctly.




                                          11
                                                                      Appendix 1


                         DISTRICT OF COLUMBIA
                          DEPARTMENT OF HEALTH
                     FISHERIES AND WILDLIFE DIVISION
                 FINANCIAL SUMMARY OF REVIEW COVERAGE
              OCTOBER 1, 2002, THROUGH SEPTEMBER 30, 2004

                                     Questioned Costs       Unsupported Costs

  Grant      Grant        Total                Federal                 Federal
 Number     Amount       Outlays     Total      Share       Total       Share
F-1-C-18    $305,823     $256,394    $16,195   $16,195   $124,798      $124,798
F-1-C-19     310,627      242,434     10,444    10,444    124,696       124,696
F-2-R-18     597,192      415,334     10,319    10,319    231,095       231,095
F-2-R-19     499,032      384,381        110       110    316,860       316,860
F-4-E-17     332,123      332,209      7,660     7,660    311,541       290,290
F-4-E-18     334,698      299,864      7,117     4,663    210,199       202,308
F-6-D-12      40,000       30,000          0         0          0             0
F-6-D-13      80,000       60,000          0         0          0             0

F-10-D-1    1,590,000    1,591,100         0         0          0          0
Totals     $4,089,495   $3,611,716   $51,845   $49,391 $1,319,189 $1,290,047




                                     12
                                                                                Appendix 2

                                DISTRICT OF COLUMBIA
                                  DEPARTMENT OF HEALTH
                              FISHERIES AND WILDLIFE DIVISION
                      STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

     Recommendations                       Status                   Action Required

A.1.1, A.1.2, A.1.3, A.2.1,       FWS and the Department    Provide a corrective action plan
A.2.2, A.2.3, A.3.1, A.3.2,       management did not        that identifies the actions taken or
A.3.3, B.1, C.1, C.2, D.1, D.2,   provide a response; the   planned to resolve the findings
D.3, E.1, E.2, E.3                recommendations are       and implement the
                                  unresolved. Additional    recommendations. The plan
                                  information is needed.    should also include the target
                                                            completion date and the official
                                                            responsible for implementation
                                                            of each recommendation. Any
                                                            recommendations that are not
                                                            implemented at the end of 90
                                                            days (after February 19, 2007)
                                                            will be referred to the Assistant
                                                            Secretary for Policy,
                                                            Management and Budget for
                                                            resolution and/or tracking of
                                                            implementation.




                                              13
